No. 19-257
In the

Supreme Court of the United States
__________________
CALIFORNIA TROUT & TROUT UNLIMITED,
Petitioners,
v.
HOOPA VALLEY TRIBE & FEDERAL ENERGY
REGULATORY COMMISSION, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the United States
Court of Appeals for the District of Columbia Circuit

__________________

HOOPA VALLEY TRIBE’S
BRIEF IN OPPOSITION
__________________
THANE D. SOMERVILLE
Counsel of Record
THOMAS P. SCHLOSSER
MORISSET, SCHLOSSER, JOZWIAK &
SOMERVILLE APC
811 First Avenue, Suite 218
Seattle, WA 98104
(206) 386-5200
t.somerville@msaj.com
Counsel for Respondent
Hoopa Valley Tribe
October 28, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the D.C. Circuit correctly concluded that a
state’s express agreement to not act on an applicant’s
request for certification pursuant to Section 401 of the
Clean Water Act, 33 U.S.C. § 1341(a)(1), for a period of
time greater than one year constitutes a refusal or
failure to act by the state that results in waiver of the
state’s certification authority under 33 U.S.C.
§ 1341(a)(1)?

ii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

The Re-Licensing Proceeding . . . . . . . . . . . . . 4

II.

The Certification Proceeding and Related
Agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

III.

The Proceedings Below . . . . . . . . . . . . . . . . . . 8

ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I.

The D.C. Circuit’s Decision Does Not Conflict
With The Decision Of Any Other Court . . . . 10
A. There Is No Conflict With Fourth Circuit
Authority . . . . . . . . . . . . . . . . . . . . . . . . . 11
B. There Is No Conflict With Second Circuit
Authority . . . . . . . . . . . . . . . . . . . . . . . . . 12
C. There Is No Conflict With Ninth Circuit
Authority . . . . . . . . . . . . . . . . . . . . . . . . . 14

II.

The D.C. Circuit’s Decision Does Not Involve
Legal Issues That Require This Court’s
Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

III.

The D.C. Circuit Decision Preserves Federal
Jurisdiction to Regulate Hydroelectric
Development . . . . . . . . . . . . . . . . . . . . . . . . . 20

iii
IV.

The D.C. Circuit Ruled Correctly On The
Merits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iv
TABLE OF AUTHORITIES
CASES
AES Sparrows Point LNG v. Wilson,
589 F.3d 721 (4th Cir. 2009). . . . . . . . . . . . . 11, 12
Alcoa Power Generating, Inc. v. FERC,
643 F.3d 963 (D.C. Cir. 2011) . . . . . . . . . . 1, 15, 23
California v. FERC,
966 F.2d 1541 (9th Cir. 1992). . . . . . . . . . . . . . . 14
City of Tacoma v. FERC,
460 F.3d 53 (D.C. Cir. 2006). . . . . . . . . . . . . . . . 21
Constitution Pipeline Co. v. N.Y. State Dep’t of
Envtl. Conservation, 868 F.3d 87 (2d Cir. 2017),
cert. denied, 138 S. Ct. 1697 (2018) . . . . . . . 13, 14
Hoopa Valley Tribe v. FERC,
913 F.3d 1099 (D.C. Cir. 2019) . . . . . . . . . . . . . . . 4
N.Y. Dep’t of Envtl. Conservation v. FERC,
884 F.3d 450 (2d Cir. 2018) . . . . . . . . . . . . . 12, 13
PUD No. 1 v. Washington, Dept. of Ecology,
511 U.S. 700 (1994). . . . . . . . . . . . . . . . . . . . . . . 15
S.D. Warren Co. v. Me. Bd. of Envtl. Protection,
547 U.S. 370 (2006). . . . . . . . . . . . . . . . . . . . . . . 15
STATUTES AND REGULATIONS
16 U.S.C. § 797(e) . . . . . . . . . . . . . . . . . . . . . . . . 20, 21
16 U.S.C. § 803(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 21
16 U.S.C. § 803(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . 20

v
16 U.S.C. § 803(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . 20
16 U.S.C. § 803(j) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
16 U.S.C. § 808(a)(1) . . . . . . . . . . . . . . . . . . . 7, 21, 22
16 U.S.C. § 811 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
33 U.S.C. § 1341(a)(1) . . . . . . . . . . . . . . . . . . . passim
REGULATIONS
18 C.F.R. Part 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
18 C.F.R. § 5.5(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
18 C.F.R. §§ 5.8-5.22 . . . . . . . . . . . . . . . . . . . . . . . . 17
33 C.F.R. § 325.2(b)(1)(ii) . . . . . . . . . . . . . . . . . . . . . 11
40 C.F.R. § 121.16 . . . . . . . . . . . . . . . . . . . . . . . . . . 23
RULES
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 10
Sup. Ct. R. 10(a) . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 10
Sup. Ct. R. 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 10
OTHER AUTHORITIES
84 Fed. Reg. 44080 (August 22, 2019) . . . . . . . . . . . 23
FPL Energy Maine Hydro LLC,
139 FERC 61215 (2012) . . . . . . . . . . . . . . . . . . . 20

1
INTRODUCTION
Pursuant to Section 401(a)(1) of the Clean Water
Act, an applicant seeking a federal license to operate
hydroelectric facilities on navigable waters must
request and obtain a certification from the relevant
state that any discharge from the proposed federally
licensed project would comply with applicable state
water quality standards. 33 U.S.C. § 1341(a)(1).
Section 401(a)(1) prevents issuance of a federal license
until the required water quality certification has been
obtained or until the state waives its certification
authority. Id. Once the state either grants or waives
certification, the federal license may be issued. Id.
Issuance of a federal license is barred if the state
timely denies certification. Id.
Section 401(a)(1) addresses waiver of certification
and when it has occurred. “If the State . . . fails or
refuses to act on a request for certification, within a
reasonable period of time (which shall not exceed one
year) after receipt of such request, the certification
requirements of this subsection shall be waived with
respect to such Federal application.” Id. “The purpose
of the waiver provision is to prevent a State from
indefinitely delaying a federal licensing proceeding by
failing to issue a timely water quality certification
under Section 401.” Alcoa Power Generating, Inc. v.
FERC, 643 F.3d 963, 972 (D.C. Cir. 2011).
In the decision below, the D.C. Circuit addressed
the question of “whether a state waives its Section 401
authority when, pursuant to an agreement between the
state and applicant, an applicant repeatedly
withdraws-and-resubmits its request for water quality

2
certification over a period of time greater than one
year.” Petitioners’ Appendix [Pet. App.] 10a. The case
presented “the set of facts in which a licensee entered
a written agreement with the reviewing states to delay
water quality certification.” Id. at 12a. Although the
applicant withdrew-and-resubmitted its certification
request each year pursuant to agreement, neither the
applicant nor the States of California or Oregon
intended any action be taken on the certification
requests. Id. at 10a-13a. The states and applicant
agreed on this withdrawal-and-resubmission scheme
solely as an attempt to avoid a finding of waiver under
Section 401. Id.
Section 401 requires state action within a
reasonable period of time not to exceed one year. 33
U.S.C. § 1341(a)(1). The D.C. Circuit found that
“California and Oregon’s deliberate and contractual
idleness defies this requirement.” Pet. App. 13a.
Because the states expressly committed to not process
the certification requests pending before them as well
as future requests, the D.C. Circuit concluded that the
states waived their certification authority under Clean
Water Act Section 401. Id. at 10a – 14a.
The D.C. Circuit correctly applied the plain
language of Section 401 of the Clean Water Act, 33
U.S.C. § 1341(a)(1), to the unique facts of this case.
This Court should deny certiorari because the D.C.
Circuit’s decision does not conflict with any decision of
any court. Sup. Ct. R. 10(a). Nor does the case present
issues that otherwise require this Court’s intervention.
Sup. Ct. R. 10(c).

3
The D.C. Circuit decision implements Congress’
intent as expressed in Clean Water Act Section 401 by
ensuring timely state action on certification requests.
The decision does not limit or impair state authority to
protect water quality in any respect. States retain
their full authority to deny or condition proposed
federal licenses that could impair water quality within
their state. The D.C. Circuit decision also prevents the
impairment of federal jurisdiction that occurs from the
kind of coordinated withdrawal-and-resubmission
scheme at issue in this case. Review by this Court is
also not required at this time because the U.S.
Environmental Protection Agency (EPA), the agency
charged with primary authority to administer the
Clean Water Act, has recently initiated a
comprehensive rulemaking to address implementation
of Section 401 certification, including issues addressed
in the D.C. Circuit decision.
There is not any compelling reason that supports
granting the petition in this fact-specific and correctly
decided case. Sup. Ct. R. 10. The petition should be
denied.
STATEMENT
In 1954, the Federal Power Commission (now, the
Federal Energy Regulatory Commission (FERC))
issued a fifty-year license for operation of the Klamath
Hydroelectric Project (Project). Pet. App. 22a. The
Project consists of five principal mainstem dams and
other related hydropower developments that span
approximately 64 river miles on the Klamath River
within northern California and southern Oregon. Joint

4
Appendix at 139, Hoopa Valley Tribe v. FERC, 913
F.3d 1099 (D.C. Cir. 2019) [herein D.C. Cir. J.A.].
Respondent Hoopa Valley Tribe is a federally
recognized Indian tribe. The Hoopa Valley Reservation
is located within the State of California and
downstream from the Project. The Klamath River
flows through the Hoopa Valley Reservation
downstream of the Project.
I.

The Re-Licensing Proceeding.

The Project license, currently held by PacifiCorp,
expired in 2006. Pet. App. 22a. Prior to that date, on
February 25, 2004, PacifiCorp filed an application with
FERC for a new Project license. Id. In December 2005,
FERC issued notice that the re-licensing application
was ready for environmental analysis. D.C. Cir. J.A. at
161. In January 2007, the Departments of Interior and
Commerce issued final mandatory conditions pursuant
to Federal Power Act Sections 4(e) and 18 regarding
minimum flows, fish passage, and other mitigation
requirements. D.C. Cir. J.A. at 112-125. Other
governments and resource agencies, including the
Hoopa Valley Tribe, submitted recommended
conditions pursuant to Federal Power Act Sections
10(a) and 10(j). D.C. Cir. J.A. at 161-162.
FERC completed environmental analysis for the
Project re-licensing and published its Final
Environmental Impact Statement in November 2007.
Pet. App. 22a. FERC found that the Project causes
significant impacts on the Klamath River environment
and that placing new terms and conditions in the
license would “enhance water quality, help restore

5
anadromous fish to historical habitat, protect fish and
terrestrial resources, improve public use of recreational
facilities and resources, and maintain and protect
historic and archaeological resources within the area
affected by project operations.” D.C. Cir. J.A. at 244.
As of November 2007, FERC had completed all steps
necessary to re-license the Project with
environmentally protective conditions. Id. at 800.
Today, more than thirteen years after license
expiration, the re-licensing has not been completed and
the Project continues operating pursuant to annual
licenses that incorporate the terms and conditions of its
expired license issued in the 1950’s. A primary reason
for the delay that has occurred in the re-licensing
proceeding is the failure and refusal of the States of
California and Oregon to act on water quality
certification requests filed by PacifiCorp.
II.

The Certification Proceeding and Related
Agreements.

PacifiCorp applied for water quality certification
from the California State Water Resources Control
Board (SWRCB) and the Oregon Department of
Environmental Quality (ODEQ) in March 2006. Pet.
App. 24a.
In 2010, PacifiCorp and other parties
entered into an agreement known as the Klamath
Hydroelectric Settlement Agreement (KHSA). Pet.
App. 5a. The KHSA provided that decommissioning
and removal of certain Project dams could commence in
2020 upon satisfaction of numerous contingencies,
including Congressional approval. Pet. App. 5a-6a.
Though the Hoopa Valley Tribe supports removal of
Project dams, the Tribe did not sign the KHSA. Section

6
6.5 of the KHSA called for abeyance of water quality
certification proceedings and required PacifiCorp to
“withdraw and re-file its applications for Section 401
certifications as necessary to avoid the certifications
being deemed waived under the CWA . . .” Pet. App.
6a.
ODEQ and the State of Oregon are KHSA
signatories. D.C. Cir. J.A. at 409-410. After the KHSA
became effective, ODEQ agreed to hold Oregon’s
Section 401 certification proceeding in “abeyance.”
D.C. Cir. J.A. at 498. In a March 29, 2010 letter to
PacifiCorp, ODEQ confirmed it would accept
PacifiCorp’s request to not process its future water
quality certification requests:
On March 22, 2010, [ODEQ] received a request
from [PacifiCorp] to hold in abeyance further
review of the application for water quality
certification under Section 401 of the Clean
Water Act for PacifiCorp Energy’s Klamath
Hydroelectric Project . . . . In accordance with
Section 6.5 of the KHSA, ODEQ will hold in
abeyance further processing of Klamath
Hydroelectric Project Section 401 applications
submitted prior to a Secretarial
Determination . . . . During the period prior to a
Secretarial Determination, PacifiCorp will
withdraw and resubmit its application to ODEQ
for water quality certification, as necessary to
avoid waiver under the Clean Water Act.
D.C. Cir. J.A. at 498 (emphasis added).

7
California Governor Arnold Schwarzenegger signed
the KHSA on behalf of California’s Natural Resources
Agency. D.C. Cir. J.A. at 409. On May 18, 2010,
pursuant to a request made under the KHSA, the
California SWRCB resolved to: “hold in abeyance
PacifiCorp’s application for water quality certification
for the Klamath Hydroelectric Project until removal of
the California mainstem facilities of the Project . . . .”
D.C. Cir. J.A. at 501. The SWRCB passed subsequent
resolutions to continue and extend the abeyance of
processing PacifiCorp’s certification requests. D.C. Cir.
J.A. at 508-09; 522-525; 628, 641.
Following execution of the KHSA, PacifiCorp
withdrew and resubmitted its certification request with
the SWRCB in 2010, 2011, 2012, 2013, and 2014. D.C.
Cir. J.A. at 506-507, 524-525, 623-625, 794-795.
PacifiCorp also withdrew and resubmitted its
certification request each year pursuant to its
agreement with the ODEQ. D.C. Cir. J.A. at 528-530,
637-640, 789-793. Despite the withdrawals-andresubmissions of the certification requests, neither
PacifiCorp nor the States of California or Oregon
intended that any action be taken on the certification
requests. D.C. Cir. J.A. at 383, 498-502, 522-523. The
sole purpose of withdrawing-and-resubmitting the
certification requests was an attempt to avoid waiver
under Section 401. Id. In the meantime, absent
certification or waiver of certification, FERC was
precluded from completing the re-licensing, but was
also required by the Federal Power Act to allow the
Project to continue operating on annual licenses that
incorporated terms and conditions of its expired
license. 33 U.S.C. § 1341(a)(1); 16 U.S.C. § 808(a)(1).

8
III.

The Proceedings Below.

On May 25, 2012, the Tribe petitioned FERC for a
declaratory order that the States of Oregon and
California had waived their water quality certification
authority under Clean Water Act Section 401 for failing
and/or refusing to act on a certification request within
a reasonable period of time (which shall not exceed one
year) after receipt of such request. Pet. App. 33a. On
June 19, 2014, FERC dismissed the Tribe’s petition,
finding “little to be gained from finding that the states
have waived certification and then issuing a license.”
Pet. App. 28a-29a.
On July 18, 2014, the Tribe requested rehearing at
FERC. Pet. App. 34a. FERC denied rehearing on
October 16, 2014. Pet. App. 42a. FERC “agree[d] with
the Tribe that continued delays in completing the
water quality certification are inconsistent with
Congress’ intent.” Pet. App. 38a. FERC added:
We continue to be concerned that states and
licensees that engage in repeated withdrawal
and refiling of applications for water quality
certification are acting, in many cases, contrary
to the public interest by delaying the issuance of
new licenses that better meet current-day
conditions than those issued many decades ago,
and that these entities are clearly violating the
spirit of the Clean Water Act by failing to
provide reasonably expeditious state decisions;
however, notwithstanding that concern, we do
not conclude that they have violated the letter of
that statute.

9
Pet. App. 39a.
FERC concluded: “As we have
explained, it is the Clean Water Act that prescribes
when a state agency has waived certification; it is not
an exercise of discretion vested in the Commission. If
our interpretation of the statute is incorrect, that
would be for the courts to determine.” Pet. App. 42a.
On appeal, the D.C. Circuit panel unanimously
reversed and vacated FERC’s orders under review,
concluding that California and Oregon had each waived
their Section 401 certification authority by entering
into and participating in the “coordinated withdrawaland-resubmission scheme” with PacifiCorp. Pet. App.
10a-14a.
While the statute does not define ‘failure to act’
or ‘refusal to act,’ the states’ efforts, as dictated
by the KHSA, constitute such failure and refusal
within the plain meaning of these phrases.
Section 401 requires state action within a
reasonable period of time, not to exceed one
year. California and Oregon’s deliberate and
contractual idleness defies this requirement.
Id. at 12a-13a.
The record indicates that PacifiCorp’s water
quality certification request has been complete
and ready for review for more than a decade.
There is no legal basis for recognition of an
exception for an individual request made
pursuant to a coordinated withdrawal-andresubmission scheme, and we decline to
recognize one that would so readily consume
Congress’s generally applicable statutory limit.

10
Accordingly, we conclude that California and
Oregon have waived their Section 401 authority
with regard to the Project.
Id. at 14a. On April 26, 2019, the D.C. Circuit denied
the petition for rehearing en banc filed by Intervenors
California Trout and Trout Unlimited. Pet. App. 17a20a. Respondent FERC did not seek rehearing at the
D.C. Circuit, nor has FERC petitioned for certiorari.
ARGUMENT
Certiorari should not be granted in this case. The
D.C. Circuit’s decision below is not in conflict with any
other decision of any court. Sup. Ct. R. 10(a). Nor does
this matter present issues that otherwise warrant this
Court’s review. Sup. Ct. R. 10(c). The D.C. Circuit
correctly applied the plain language of Section 401 of
the Clean Water Act in what it considered to be “an
undemanding inquiry.” Pet. App. 10a. The decision
below does not limit states’ authority to deny
certification or issue certifications with conditions
pursuant to Section 401 of the Clean Water Act. The
decision below confirms that states must act in
accordance with the time limit expressly prescribed by
Congress in Section 401. There is not any compelling
reason that supports granting the petition in this factspecific and correctly decided case. Sup. Ct. R. 10. The
petition should be denied.
I.

The D.C. Circuit’s Decision Does Not
Conflict With The Decision Of Any Other
Court.

In the decision below, the D.C. Circuit addressed
the question of “whether a state waives its Section 401

11
authority when, pursuant to an agreement between the
state and applicant, an applicant repeatedly
withdraws-and-resubmits its request for water quality
certification over a period of time greater than one
year.” Pet. App. 10a. No other court has addressed
this question of law or addressed the unique set of facts
presented. There is no split of circuit authority. The
Court should deny the petition for a writ of certiorari.
A. There Is No Conflict With Fourth
Circuit Authority.
In AES Sparrows Point LNG v. Wilson, 589 F.3d
721 (4th Cir. 2009), the Fourth Circuit addressed the
question of when the one-year review period for Section
401 certification commenced. Id. at 729-30. The
Fourth Circuit found the text of the Clean Water Act
ambiguous on that question. Id. at 729. The Fourth
Circuit relied upon and gave Chevron deference to an
Army Corps of Engineers’ regulation, 33 C.F.R.
§ 325.2(b)(1)(ii), which provided that the state’s review
period under Section 401 commenced upon the state’s
receipt of a “valid request for certification.” Id.
Pursuant to the Corps’ regulation, the first “valid
request for certification” was received by the State of
Maryland on April 25, 2008 and thus the state’s denial
of certification on April 24, 2009 (within one-year from
the first valid request for certification) was timely and
no waiver occurred. Id. at 729-30.
There is no conflict between the decision below and
the Fourth Circuit’s decision in AES Sparrows Point
LNG. The D.C. Circuit decision below did not address
whether the one-year certification review period
commences upon receipt of a “valid request” for

12
certification, which was the issue in AES Sparrows
Point LNG. The decision below did not address the
Army Corps’ of Engineers’ regulation that was
determinative in AES Sparrows Point LNG. Unlike
AES Sparrows Point LNG, the decision below involved
a state’s failure and refusal to act on a request for
certification. The decision below and AES Sparrows
Point LNG are fully compatible. That is, in a case
governed by the Army Corps’ of Engineers’ regulations,
once a valid request for certification is received, a state
must act on that request within one-year, at the most.
B. There Is No Conflict With Second
Circuit Authority.
In N.Y. Dep’t of Envtl. Conservation v. FERC, 884
F.3d 450 (2d Cir. 2018), consistent with the D.C.
Circuit’s decision below, the Second Circuit held that
the State of New York waived its Section 401
certification authority by failing to act within one-year
of a request for certification. Id. at 455-456. The state
received a request for certification on November 23,
2015 and then purported to deny the certification
request on August 30, 2017 (nearly two years after the
initial certification request). Id. at 453-454. The
Second Circuit held that the plain language of Clean
Water Act Section 401 creates a bright-line rule as to
when the review period for certification begins. Id. at
455-56. Because the State of New York failed to act
within one-year of the request for certification, the
Second Circuit found the state had waived its
authority. Id.
The Second Circuit responded to concerns presented
by the state that requiring action within one-year from

13
the certification request would require premature
decisions. Id. at 456. The Second Circuit, in dicta,
explained that a state retained authority to deny
applications without prejudice, “which would constitute
‘acting’ on the request under the language of Section
401.” Id. The Second Circuit also noted in one passing
sentence that the state “could also request that the
applicant withdraw and resubmit the application.” Id.
No further explanation, analysis, or reasoning is
provided regarding that statement, which is dicta not
central to the Second Circuit’s holding. And as
discussed below, Constitution Pipeline Co. v. N.Y. State
Dep’t of Envtl. Conservation, 868 F.3d 87 (2d Cir. 2017),
cert. denied, 138 S. Ct. 1697 (2018), cited by the Second
Circuit, did not make any ruling regarding withdrawaland-resubmission of certification requests or any issues
addressed by the decision below. Id. at 456, n. 35.
The Second Circuit’s opinion did not address the
situation presented by the D.C. Circuit decision below
in which the states expressly refused and, pursuant to
mutual agreement, failed to process an applicant’s
certification requests for many years. The Second
Circuit’s holding is consistent with the D.C. Circuit’s
decision below; that is, a state’s failure or refusal to act
on a Section 401 certification within one-year of receipt
of a certification request will result in waiver. That is
the result compelled by the plain language of Section
401 of the Clean Water Act. The Fourth Circuit,
Second Circuit, and D.C. Circuit are in accord on this
question.
Nor does Constitution Pipeline Co. v. N.Y. State
Dep’t of Envtl. Conservation, 868 F.3d 87 (2d Cir. 2017),

14
cert. denied, 138 S. Ct. 1697 (2018) address the
questions raised by the decision below. In that case,
the applicant for a Section 401 certification withdrew
and resubmitted its certification request on at least two
occasions. The applicant argued that the state had
waived its Section 401 certification authority by failing
to act within one-year of the initial certification
request. Id. at 99-100. The Second Circuit ruled that
it lacked jurisdiction to address that issue. Id. at 100.
That Second Circuit decision is not in conflict with the
D.C. Circuit’s decision below.
C. There Is No Conflict With Ninth Circuit
Authority.
Petitioners also cite California v. FERC, 966 F.2d
1541 (9th Cir. 1992) as a source of possible conflict.
That case involved application of a FERC regulation
that provides the one-year certification review period
commences upon the state’s receipt of a certification
request. Id. at 1552. That regulation became effective
on May 11, 1987 and FERC applied the regulation
retroactively to pending license applications including
those pending for more than one year from the receipt
of a certification request. Id. at 1552-1554. The Ninth
Circuit held that FERC’s regulation was consistent
with Clean Water Act Section 401, that retroactive
application of the regulation to pending license
applications was permissible, and that California
waived its certification authority by not acting on a
request within one year of the date of receipt of the
request. Id. This Ninth Circuit opinion is not in
conflict with and is consistent with the D.C. Circuit’s
decision below because both decisions show that

15
Section 401 requires state action on a certification
request within one year.
II.

The D.C. Circuit’s Decision Does Not
Involve Legal Issues That Require This
Court’s Review.

States have broad authority to deny or impose
conditions on federal licenses pursuant to Clean Water
Act Section 401. 33 U.S.C. § 1341(a)(1); S.D. Warren
Co. v. Me. Bd. of Envtl. Protection, 547 U.S. 370 (2006);
PUD No. 1 v. Washington, Dept. of Ecology, 511 U.S.
700 (1994). The D.C. Circuit decision below does not
limit the authority of states to protect water quality
through the certification provisions of Section 401.
Rather, it ensures and requires that states timely
exercise their authority to protect water quality within
their state.
For certification requests that have been pending
for less than one year and for all future certification
requests, the D.C. Circuit decision has no effect
whatsoever on states’ authority to veto, pursuant to
denials issued under Section 401, proposed federal
projects that may cause harmful effects to water
quality.
33 U.S.C. § 1341(a)(1); Alcoa Power
Generating, Inc. v. FERC, 643 F.3d 963, 971 (D.C. Cir.
2011) (recognizing states’ power to veto federal projects
through timely denial of Section 401 water quality
certification). For such certification requests, the D.C.
Circuit decision also has no effect on states’ authority
to issue certifications containing terms and conditions
protective of water quality. State authority to timely
exercise the power granted by Section 401 of the Clean
Water Act is unimpaired.

16
This case does not present any challenge to state
authority to deny certification or condition federal
licenses pursuant to Clean Water Act Section 401. This
case arose out of the failure and refusal of California
and Oregon to timely exercise their authority to protect
water quality pursuant to Section 401. Although the
states had the option to veto the Klamath Project
license through denial or regulate the Project through
imposition of mandatory conditions, the states chose to
not exercise their statutory authority under Section
401. Instead, the states committed through the KHSA
and formal resolutions to not process any certification
request filed by the applicant relating to the federal
license. D.C. Cir. J.A. at 498-502, 522-523, 628. The
states prospectively agreed to and did annually accept
PacifiCorp’s letters purporting to withdraw and
resubmit the same certification request solely in an
attempt to avoid a waiver finding. D.C. Cir. J.A. at
498, 506, 524; Pet. App. 11a-12a. Neither PacifiCorp
nor the states intended any action be taken on the
certification requests. Id.
The coordinated withdrawal-and-resubmission
scheme presented in this case circumvented FERC’s
federal licensing jurisdiction and cut FERC and the
public out of the process related to the Project’s relicensing or decommissioning. The scheme could have
continued forever in the states’ discretion, preventing
FERC from exercising its federal jurisdiction over the
re-licensing proceeding, until being ruled unlawful in
the D.C. Circuit decision below. The D.C. Circuit
decision does not limit or negate state authority to
regulate water quality under Clean Water Act Section
401. To the contrary, the decision properly prevents

17
states from avoiding their statutory obligations and
will ensure timely and effective protection of water
quality under Section 401.
Petitioners claim that for “large and complex
projects,” the decision below will force states to either
“render premature certifications without an adequate
record or analysis, or . . . reflexively deny certification
requests until a certification decision is possible.” Pet.
24. The argument is incorrect. In complex applications
involving federally licensed hydroelectric dams, FERC’s
default integrated licensing process (ILP) provides
extensive time for consultation and study with state
agencies on water quality related issues prior to the
time that a certification request is filed. 18 C.F.R. Part
5. For hydroelectric re-licensing, the ILP begins no less
than five years prior to license expiration. 18 C.F.R.
§ 5.5(d). The ILP provides opportunities for state
certification agencies to consult, comment, request
studies, and seek water quality related information
shortly after the ILP begins, and this process continues
through the filing of the re-license application. 18
C.F.R. §§ 5.8-5.22. Under FERC’s existing process,
significant work relating to water quality certification
occurs before the first certification request is filed,
leaving one additional year for the state to finalize its
decision to issue certification with conditions or deny
certification.
Amici states concede that “[m]ost requests for water
quality certification by States can be, and are,
approved or denied well within the one-year timeframe
set forth in Section 401.” Brief of Amici Curiae in
Support of Petitioners, at 9. If a state cannot make a

18
final decision on a certification request within one-year
without additional information, it has the option under
Section 401 to deny the application. In addition to the
ILP, states could also develop their own pre-filing
requirements to provide additional time to
prospectively evaluate issues relating to upcoming
certification requests.
Nor does the D.C. Circuit decision frustrate states’
ability to enter into cooperative settlement agreements.
In the re-licensing of hydroelectric dams, FERC’s
existing process begins five years prior to license
expiration, which provides adequate time to negotiate
comprehensive re-licensing settlements. Nor is there
any reason why a settlement could not be negotiated
following the issuance of certification or following a
denial of certification without prejudice. Petitioners’
argument that the decision below will impair
settlement is unsupported speculation.
Nor does the D.C. Circuit decision threaten the
KHSA or efforts to remove the dams from the Klamath
River. The KHSA was substantially amended in 2016
due to the failure to satisfy its preconditions, including
federal funding approval. Pet. App. 6a. The “Amended
KHSA” created an alternative proposal for
decommissioning, not dependent on Congressional
approval, which is currently pending before FERC. Id.
The decision below does not address the Amended
KHSA or the transfer and surrender proposed by that
new agreement. ODEQ has already issued a final
water quality certification under Section 401 relating
to the Amended KHSA’s decommissioning proposal.

19
The decision whether to approve the transfer and
surrender proposal remains pending before FERC.
Arguments regarding the potential application of
the decision below to other pending certification
requests provide no valid basis to grant certiorari. The
decision below addresses a potentially unique factual
situation where state certification agencies explicitly
committed to not process current and future
certification requests pursuant to an agreement with
the applicant. The set of facts presented in the decision
below constituted a clear failure and refusal by the
states to act on a certification request.
Facts in other pending proceedings may vary, in
some cases significantly, from those addressed by the
D.C. Circuit below. For example, the D.C. Circuit
expressly declined to resolve the different situation
where an applicant withdraws and resubmits a wholly
new or materially different certification request in its
place. Pet. App. 12a. Nor did the D.C. Circuit address
the situation where an applicant unilaterally
withdraws a certification request without involvement
by or coordination with a state. Id. Other fact patterns
may differ significantly from the specific facts
addressed by the D.C. Circuit, which addressed the
situation where a state and applicant expressly agree
to a coordinated scheme by which the state commits to
not process the certification request while the applicant
withdraws and resubmits the exact same application
for the purpose of avoiding a waiver finding. Id. Here,
the states’ own conduct constituted an express refusal
or failure to act. While different facts in a future case

20
might present a closer question, that is no basis to
grant certiorari here.
Even if waiver is found to occur in another
proceeding, that does not mean that the specific project
will be exempt from water quality standards or other
protective conditions; rather, it only means that states
will forego their mandatory conditioning authority
under Section 401 due to their failure or refusal to act
within the one-year time period mandated by Congress.
If a state’s mandatory conditioning authority under
Section 401 is waived, FERC retains the ability, and
has an independent legal obligation, to include
conditions protective of water quality in a federal
license. 16 U.S.C. § 797(e); 16 U.S.C. § 803(a)(1).
FERC must consider state agencies’ recommendations
related to license issuance and conditions, which can
include water quality protective conditions. 16 U.S.C.
§ 803(a)(2). See, e.g., FPL Energy Maine Hydro LLC,
139 FERC 61215, P 15 (2012) (including in federal
license conditions from waived Section 401
certification).
III.

The D.C. Circuit Decision
Federal Jurisdiction to
Hydroelectric Development.

Preserves
Regulate

The coordinated withdrawal-and-resubmission
scheme at issue in this case, where the states and the
applicant agreed that the Section 401 certification
requests would not be processed and the applicant
would simply re-file the exact same request each year
for the sole purpose of avoiding waiver, has serious
adverse consequences for the environment and the
public interest in the context of hydroelectric dam re-

21
licensing under the Federal Power Act. In ruling such
a scheme unlawful, the D.C. Circuit decision prevents
the impairment of FERC’s jurisdiction to regulate
hydropower developments on our nation’s waters.
Upon re-licensing at FERC, a hydroelectric project
is not only required to comply with the terms of a
timely issued water quality certification, but is also
required to comply with the many conditions required
under Sections 4(e), 10(a), 10(j), and 18 of the Federal
Power Act, as well as other applicable requirements of
federal law. City of Tacoma v. FERC, 460 F.3d 53, 7374 (D.C. Cir. 2006); 16 U.S.C. §§ 797(e); 803(a), (j), 811.
But until the re-licensing proceeding concludes or a
new license is issued by FERC, FERC must allow the
existing project to continue operating on annual
licenses that contain the terms and conditions of the
expired license, which was generally issued thirty to
fifty years prior. 16 U.S.C. § 808(a)(1). In some cases,
like here, the delay in water quality certification
following license expiration extends for more than a
decade. Pet. App. 11a.
Delay pending re-licensing of an existing
hydroelectric project harms the public interest in
ensuring that projects meet current requirements of
federal law. Delay in re-licensing is advantageous to
the project owner who can continue to operate and
generate profits from its existing hydroelectric
development for additional years on an expired license
without the need to upgrade or modify the project to
comply with current federal environmental laws and
mitigation requirements. This dynamic, in which the
project owner benefits from delay resulting from a

22
withdrawal-and-resubmission scheme, likely impedes
rather than promotes timely and effective re-licensing
settlements. With certainty, it is harmful to water
quality and environmental protection. The decision
below properly holds that such a coordinated scheme of
withdrawal-and-resubmission between a state and
applicant is unlawful under the plain language of
Clean Water Act Section 401. 33 U.S.C. § 1341(a)(1).
Absent a finding of waiver, the coordinated scheme
of withdrawal-and-resubmission at issue in this case
unlawfully deprives FERC of the jurisdiction granted
to it by the Federal Power Act. In this case, the states
and applicant agreed to an abeyance of state
certification activities for a period of years which was
implemented through the withdrawal-andresubmission of certification requests. If such a
withdrawal-and-resubmission scheme were lawful,
states could hold certification proceedings (and thus
federal licensing proceedings) in abeyance potentially
forever. Absent the states’ issuance of certification or
a finding of waiver, FERC would be forever deprived of
its jurisdiction to issue a new license with new
appropriate terms and conditions. At the same time, in
a re-licensing, FERC would be required by the Federal
Power Act, 16 U.S.C. § 808(a)(1), to allow the existing
project to continue operating on terms of its expired
license even though that same project would be
required to meet current federal law requirements
upon the conclusion of re-licensing. In federal relicensing, delay in issuing water quality certification
prevents timely mitigation of impacts of existing
projects.

23
Congress provided states with significant authority
to protect water quality within their state in Clean
Water Act Section 401. But Congress did not intend
states to use Section 401 to delay federal licensing or to
deprive FERC or other federal licensing authorities of
their regulatory jurisdiction. The “purpose of the
waiver provision [in Section 401] is to prevent a state
from indefinitely delaying a federal licensing
proceeding by failing to issue a timely water quality
certification under Section 401.” Alcoa, 643 F.3d at
972. Congress, in Section 401, gave states authority to
issue or deny certification within a specific one-year
time frame. 33 U.S.C. § 1341(a)(1). Section 401
provides no procedure for a state to toll or extend the
one-year maximum timeframe mandated by Congress.
Id.
The EPA recently promulgated proposed rules
regarding Section 401 certification, which are
consistent with the D.C. Circuit decision below. 84
Fed. Reg. 44080 (August 22, 2019). The EPA is the
federal agency charged with administration of the
Clean Water Act. Pet. App. 11a. Consistent with the
D.C. Circuit decision below, EPA’s proposed rule
provides that states are “not authorized to request the
project proponent to withdraw a certification request or
to take any other action for the purpose of modifying or
restarting the established reasonable period of time,”
which EPA confirms as being not more than one year.
84 Fed. Reg. 44080, 44120 (proposed rule § 121.4(e),
(f)). The interpretation of Section 401 in EPA’s
proposed rule is also consistent with EPA’s current
regulatory interpretation of Section 401. 40 C.F.R.
§ 121.16; Pet. App. 11a.

24
The position advocated by Petitioners and their
amici is inconsistent with the Clean Water Act, Federal
Power Act, environmental protection, and the public
interest. Review of the D.C. Circuit decision by this
Court is not warranted. The Petition for Writ of
Certiorari should be denied.
IV.

The D.C. Circuit Ruled Correctly On The
Merits.

The decision below was correctly decided.
Petitioners agree that waiver occurs if the state fails or
refuses to act on a certification request within a
reasonable period of time (which shall not exceed one
year). 33 U.S.C. § 1341(a)(1). That is exactly what
happened here. The D.C. Circuit, in its decision below,
focused on the states’ express agreement to not process
certification requests for a period of years – and
potentially forever. Pet. App. 10a-14a.
While the statute does not define ‘failure to act’
or ‘refusal to act,’ the states’ efforts, as dictated
by the KHSA, constitute such failure and refusal
within the plain meaning of these phrases.
Section 401 requires state action within a
reasonable period of time, not to exceed one
year. California and Oregon’s deliberate and
contractual idleness defies this requirement. By
shelving water quality certifications, the states
usurp FERC’s control over whether and when a
federal license will issue. Thus, if allowed, the
withdrawal-and-resubmission scheme could be
used to indefinitely delay federal licensing

25
proceedings and undermine FERC’s jurisdiction
to regulate such matters.
Id. at 12a-13a.
Petitioners and their amici mischaracterize the D.C.
Circuit’s opinion and attempt to shift the focus to the
applicant’s conduct, suggesting that the conduct of an
applicant should not be attributed to a state for
purposes of a waiver finding. But the D.C. Circuit
focused not on the applicant’s conduct but rather on the
states’ coordination and express agreement with the
applicant to not process the pending or future
certification requests. Id. at 10a-14a. It was the
states, through their own conduct here, that failed and
refused to act on the requests. Id.
Nor does the decision below undermine state
authority to protect water quality under Section 401.
States’ authority to veto or condition projects that could
impair water quality remains in full effect. States may
not, however, refuse to implement their authority
through a scheme that prevents completion of the
federal licensing proceeding.

26
CONCLUSION
The writ for petition of certiorari should be denied.
Respectfully submitted,
THANE D. SOMERVILLE
Counsel of Record
THOMAS P. SCHLOSSER
MORISSET, SCHLOSSER, JOZWIAK &
SOMERVILLE APC
811 First Avenue, Suite 218
Seattle, WA 98104
(206) 386-5200
t.somerville@msaj.com
Counsel for Respondent
Hoopa Valley Tribe

